U.S. DEPARTMENT OF JUSTICE
 ANNUAL SPECIAL-PURPOSE
  FINANCIAL STATEMENTS
     FISCAL YEAR 2011
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 12-04
           December 2011
                U.S. DEPARTMENT OF JUSTICE
                 ANNUAL SPECIAL-PURPOSE
                  FINANCIAL STATEMENTS
                      FISCAL YEAR 2011

               OFFICE OF THE INSPECTOR GENERAL
                  COMMENTARY AND SUMMARY

      This audit report contains the Annual Special-Purpose Financial
Statements, also known as the Closing Package Financial Statements, of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. The Office of the Inspector
General (OIG) performed the Department’s audit in accordance with
U.S. generally accepted government auditing standards. The audit resulted
in an unqualified opinion on the FY 2011 special-purpose financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2010, the Department also received an
unqualified opinion on its special-purpose financial statements (OIG Report
No. 11-04).

      The Department’s special-purpose financial statements were prepared
in accordance with Volume I, Part 2 – Chapter 4700 of the U.S. Department
of the Treasury’s Treasury Financial Manual. Their purpose is to assist the
U.S. Department of the Treasury in preparing the U.S. Government Financial
Report, by reclassifying the Department’s general-purpose financial
statements into a standard format that will be consolidated with other
federal agencies, and reporting the Department’s intragovernmental
balances by federal agency to facilitate elimination of transactions between
federal agencies.

       The Office of the Inspector General did not identify any significant
deficiencies in internal control over financial reporting or instances of
non-compliance with laws and regulations or other matters in the Office of
the Inspector General’s Report on Special-Purpose Financial Statements.

      The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the financial statements. However, the
amounts included for the OIG are not material to the Department’s financial
statements, and the OIG is organizationally independent with respect to all
other aspects of the Department’s activities.
